HHS/OIG, Audit -"Review of Medicare Claims for Air Ambulance Services Paid to the Hospital of the University of Pennsylvania,"(A-03-04-00023)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Claims for Air Ambulance Services Paid to the Hospital of the University of Pennsylvania,"(A-03-04-00023)
June 20, 2006
Complete Text of Report is available in PDF format (5.32MB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Hospital of the University of Pennsylvania (HUP) claimed Medicare air ambulance services during calendar year 2002 in accordance with Medicare requirements. Contrary to Medicare requirements HUP incorrectly billed 83 of 100 randomly sampled claims.Â  We recommended that HUP: refund $114,938 in air ambulance overpayments to the Medicare program; bill only for properly documented transports, accurate mileage and mileage to the nearest appropriate facility; discontinue charges for flying air ambulances when not transporting beneficiaries, report proper fee payment amounts; and determine primary payers on all Medicare claims. HUP generally disagreed with our findings.